<html>
<title> - CONDITIONS AT CAMP LIBERTY: U.S. AND IRAQI FAILURES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                      CONDITIONS AT CAMP LIBERTY: 
                        U.S. AND IRAQI FAILURES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2012

                               __________

                           Serial No. 112-181

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

75-862PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, 
JEFF FORTENBERRY, Nebraska               Florida<greek-l>
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, CaliforniaUntil 8/
TED POE, Texas                           14/12 deg.
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Lincoln P. Bloomfield, Jr., chairman, The Stimson 
  Center.........................................................     3

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Lincoln P. Bloomfield, Jr.: Prepared statement.....     6

                                APPENDIX

Hearing notice...................................................    20
Hearing minutes..................................................    21
The Honorable Lincoln P. Bloomfield, Jr.: Statement on the 
  Relocation Process of Camp Ashraf Asylum Seekers, by Tahar 
  Boumedra.......................................................    22

 
          CONDITIONS AT CAMP LIBERTY: U.S. AND IRAQI FAILURES

                              ----------                              


                      THURSDAY, SEPTEMBER 13, 2012

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 o'clock p.m., 
in room 2255 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. This hearing of the Oversight and 
Investigations Subcommittee for the Foreign Affairs Committee 
will now come to order. We now move into the formal hearing on 
United States and Iraqi failures in regard to Camp Ashraf, and 
by extension, the strategic situation in Iraq and the region. I 
say this because the motive behind the attacks on Camp Ashraf 
comes from Iran through the Maliki government in Iraq which has 
aligned itself with the dictatorship in Tehran. Ashraf is only 
one example of this growing threat to American interests in the 
region, and could well be very symbolic of what we can expect 
in this region.
    Consider Shiite militias and the terrorists groups of like 
Hezbollah that operate in Iraq, funded and armed by Iran. The 
Iranian elite special squads, the Quds Force, also operates in 
Iraq without interference by the Maliki government. President 
Barack Obama was unable to negotiate a new Status of Forces 
Agreement with Prime Minister Maliki that would have allowed a 
small American military presence in Iraq past the end of 2011. 
He then placed limits on the size of the U.S. Embassy staff and 
the CIA. The Maliki government was adamant that U.S. forces 
leave the country, thus removing a check on their actions. Iran 
was also adamant about the United States withdrawal.
    The day after the last U.S. troops left Iraq, the Sunni 
Vice President al-Hashemi, a long-time foe of Shiite Prime 
Minister Maliki, was charged with terrorism. Hashemi fled first 
to Kurdistan, the province there in Iraq, and then on to 
Turkey. In September, on September 9th, in fact, he was 
sentenced in absentia to death by hanging. Maliki, who was once 
hailed as an Iraqi nationalist, has obviously become a 
sectarian plotting against the Sunnis and the Kurds of his own 
country. He has provoked a new domestic unrest and violence. 
The Sunnis were persuaded to turn on al-Qaeda in Iraq because 
we promised that they would get a fair shake in a democratic 
country. But that promise is fading, and the door may open 
again for al-Qaeda to rebuild.
    An editorial Monday, in the British Guardian newspaper, 
raised questions of whether Maliki would become an outright 
dictator or not. It ended with the statement, and I quote, 
``Maliki's quest for domination could drive his country back 
into civil war.'' Iraq is a conduit for weapons and supplies to 
the Syrian dictatorship which is trying to crush an uprising of 
its Sunni majority. The Syrian regime is allied with Iran.
    I initially supported the invasion of Iraq, I personally 
did, to overthrow the dictatorship of Saddam Hussein. I thought 
that was what was the right thing for us to do, to oppose 
dictatorships, the United States, and to help people struggling 
to create democratic societies. In retrospect, I consider this 
to have been one of the greatest errors I have ever made, and 
certainly the greatest error made by the previous 
administration, the Bush administration.
    We sent an Army into Baghdad to get rid of a hostile 
government, which we did. But then while our troops were still 
there, what happened but a hostile government came into power. 
But this new hostile government is a hostile government aligned 
with the most dangerous regime in the region, Iran, which is a 
supporter of terrorism and has ambitions to develop nuclear 
weapons.
    Americans need to think about this a long time to figure 
out what we should be doing in the future and what policies we 
have. But one thing is sure, we should always be on the side of 
people who are longing for freedom, and that is where Camp 
Ashraf comes in. The Camp Ashraf story may start about human 
rights, but is ending up as part of a tragic, an epic tragedy 
that ties into how or who lost Iraq.
    With us today to discuss this tale is Lincoln Bloomfield, 
Jr. We had invited Ambassador Daniel Fried to testify on behalf 
of the State Department, but Ambassador Fried is in charge of 
Camp Ashraf and that issue, but he is out of the country, and 
the State Department said he was the only one who could 
actually discuss this adequately. So today we have with us 
Lincoln Bloomfield, Jr. instead. Given that since the 
withdrawal of U.S. troops from Iraq that the State Department 
is the charge of U.S. policy, and now all our troops are gone 
so now it is all up to the State Department, I found it hard to 
believe that they could not find someone to come up here and 
tell us what it is all about. So be it.
    Mr. Bloomfield is the chairman of the Stimson Center. He 
was the Special Envoy for the Man-Portable Air Defense Systems 
threat reduction from 2008-2009, and Assistant Secretary of 
State for Political-Military Affairs from 2001-2005. Mr. 
Bloomfield previously served as Deputy Assistant Secretary of 
State for Near Eastern Affairs from 1992-93, Deputy Assistant 
Vice President for National Security Affairs in '91-92, and 
Principal Deputy Assistant Secretary of Defense for 
International Security Affairs from '88 to '89, among other 
positions. And I don't see how you could squeeze anymore 
positions into that resume dating back to 1981.
    Mr. Bloomfield, if you could try to limit your testimony so 
we could have a few questions, because we expect some votes 
here fairly soon.
    You may proceed.

    STATEMENT OF THE HONORABLE LINCOLN P. BLOOMFIELD, JR., 
                  CHAIRMAN, THE STIMSON CENTER

    Mr. Bloomfield. Thank you, Chairman Rohrabacher, and thank 
you for the invitation to appear before this subcommittee. With 
your permission, sir, I have prepared some testimony and would 
ask that it be introduced into the record of the hearing.
    Mr. Rohrabacher. Without objection, so ordered.
    Mr. Bloomfield. I will also be referring, I expect, to Mr. 
Boumedra's testimony, and perhaps if it is permissible, his 
testimony and his briefing could be made part of the record of 
the hearing too, if that is permissible.
    Mr. Rohrabacher. So ordered, without objection.
    Mr. Bloomfield. Thank you very much.
    With your permission, sir, I will take just 1 minute. I 
have had five jobs in the State Department, and I am going to 
talk about the State Department. I would like to just say a 
word of respect and condolence for the four State Department 
employees who lost their lives in Benghazi. It is a terrible 
loss, and I offer my condolences to their families and friends 
and to the State Department community. It just reminds us how 
tough and how important the work they do is. And even though I 
will be framing a policy issue that is very much of a problem 
for the State Department, it does not imply any disrespect at 
all for their vital mission or the people who serve.
    I have one message, and I would hope that folks will digest 
my prepared testimony. There are copies here and it will be 
made available for the record. Mr. Boumedra testified as a 
human rights expert and as a former U.N. official, and it was 
clear from his briefing that he is very much concerned that the 
United Nations uphold its own principles. So the reason he 
resigned was that he felt that he was not being true to the 
principles of the U.N., and I respect that.
    There are people in this room and there are constituents 
for the members of the subcommittee who have friends and 
relatives in Camp Liberty and Camp Ashraf, and there is no 
question that they are vitally concerned for the welfare of 
their friends and relatives in Camp Liberty and Camp Ashraf. I 
share both of those concerns, but my message has really a third 
focus, which is United States interests and U.S. policy.
    Looking at the facts in this case, I believe that what Mr. 
Boumedra has brought to light has serious implications for U.S. 
policy. And Mr. Chairman, you talked about these as well, and I 
want to amplify the point that you were getting at.
    From my perspective, what we thought was happening in Iraq 
was that we were undergoing a process of relocation of 3,400 
people to a place where UNHCR could process them as potential 
refugees. And the hope was, and the U.S. Government hope is, 
that they will complete the process, that most, if not all, 
will qualify as refugees, and that they will find third-party 
countries who are willing to take them. And in a perfect world, 
all of them will be relocated elsewhere safely and securely, 
problem solved. Secretary Clinton herself testified in February 
to the House Foreign Affairs Committee that the United States' 
policy was to try to process these people as expeditiously as 
possible, safely and securely, and to see them passed along to 
willing third countries.
    What we have heard from Mr. Boumedra is something very, 
very different. You heard him mention the Iranian Embassy. I 
have heard him talk about at least five meetings where the 
Iranian Embassy was at the decision table, and what we have 
heard is that an element of the Iraqi Government surrounding 
the Prime Minister of Iraq is implementing an agenda that is 
very much Iran's agenda.
    I am here today because I don't believe that the scenario 
that Mr. Boumedra has revealed as the real scenario that UNAMI 
has been supporting can be squared with the U.S. goal here. I 
think that they are operating directly at cross purposes, and I 
think that poses some serious problems and some serious risks.
    Some of the implications are that it puts the United States 
in the horrific position of giving this population at Camp 
Ashraf essentially two choices. Either move to what you have 
clearly learned is a detention facility with seven checkpoints 
guarded by a group that is commanded by Colonel Sadiq Muhammad 
Kazem, who led the April 2011 massacre at Camp Ashraf. He led 
the massacre.
    Now Mr. Boumedra says he was taking orders--we have heard 
that before, in the Nuremberg trial--but he led the massacre. 
He is in command of security at Camp Liberty. I pray that no 
one at the State Department knew that when they consented to a 
process that would drive people to be put under the command of 
the man who led the massacre. That alone has to be a human 
rights violation, to be facing down the guns of the people who 
wounded you, who killed the people among you. It is clearly a 
problem.
    And so there has been resistance among this population not 
to be put in that position, but they have been told, again by 
the Secretary of State in the same testimony, that her 
deliberations on the foreign terrorist organization list, her 
decision whether to re-list or de-list the MEK, will be guided 
in large part by how much cooperation this population exercises 
in leaving willingly and going to Camp Liberty. So look at the 
choice.
    And I must add, we have heard through the appeals court 
process that Secretary Clinton herself has been preoccupied 
with some pretty major crises in the world, and I take them at 
their word that she has been not able to review the file 
herself. But to put the Secretary of State in the position of 
saying, either go to a detention center where you are going to 
be unarmed, looking at people who have killed people amongst 
you, or plan to be on the terrorism list from now to eternity 
where you can't travel, your families are separated from folks 
in the U.S., and all of your movements are being tracked by 
financial investigators and FBI and counterterrorism people, 
that is the choice we have given them.
    And I just don't believe the United States, if they knew 
all the facts that we have now learned, would allow themselves, 
would allow the United States to be behind that kind of a 
Hobson's choice. There would have to be a third option that 
respects principles of human rights. I think America is better 
than that, and I hope the Secretary of State will become 
acquainted at least with those facts. We should not be coercing 
the population into an untenable and illegal situation.
    Secondly, there has been some concern--and I have 
investigated the open source material about the MEK history--
that Iranian intelligence for years has been planting false 
information. It doesn't mean that the MEK was not conducting 
armed resistance against the mullahs in Iran, and I could talk 
about that. But my point is that when they leave, when the last 
group leaves Camp Ashraf, what protection do they have, do we 
have that there won't be some attempt to plant false evidence 
that they were planning terrorist activities, thereby to 
manipulate our counterterrorism policy? Some of the residents 
of Camp Ashraf have asked for a third-party, independent 
investigation of Camp Ashraf, and have been told no, and I 
believe the U.S. Government has said it is not necessary. That 
is a risk.
    The third risk is a third massacre. Imagine if Colonel 
Sadiq, who by the way did travel. He went to France this summer 
to try to brief the European Parliament and was arrested at the 
door and held for several hours and then put on a plane back to 
Iraq. But if there is a third massacre, this does implicate 
United States law. And as someone who has worked for years on 
security assistance relationships, with this one we have lost a 
lot of troops to try to get us to the point where U.S. and 
Iraqi forces will mentor and will be partners for many years. 
We have huge programs with jobs lined up behind them: Fighter 
aircraft and tanks. There are assembly lines that are waiting 
for these programs to go forward.
    If there is a third massacre, the Arms Export Control Act 
could severely complicate that. It would give the Congress and 
the administration a terrible choice of either overlooking the 
law and giving them a pass under those circumstances, or 
interrupting a program for which so many troops fought and 
died. There is also the Leahy Human Rights law, and if Colonel 
Sadiq doesn't qualify as someone who has committed gross human 
rights violations, I don't know who would. But he should be 
banned under the law from ever receiving training from the 
United States.
    Those are two laws that I helped enforce and wrote the 
guidance for in some cases, and there is no good outcome here. 
And so I guess I would say, as long as this Iranian and Prime 
Minister Maliki's agenda to do as Mr. Boumedra said, it is an 
announced policy to make their lives unbearable. So we hear a 
lot about clean water and air conditioning and private 
property, and these are huge issues, but if you look at it 
strategically as part of a plan to make them lose their will 
and say, all right, I can't look at this 120 degree container 
box anymore, just let me out of here, and put them out into the 
open in Iraq where they could be vulnerable to Iraqi elements 
or to Iranian intelligence, and then take the top 200, 
thereabouts, for whom there are arrest warrants out who can 
never qualify by the way as refugees as long as there is a 
warrant out, the plan would obviously be to turn them over to 
Iran, which violates the non-refoulement principle which is a 
cardinal principle of humanitarian law.
    Do we want to be a party to such things? I testified last 
December that I wondered why we didn't try to move the whole 
enterprise of the UNHCR to a safe harbor somewhere else. I 
repeat that recommendation today, and I redouble my belief that 
U.S. interests and the State Department's interests would be 
much better served if Secretary Clinton tried really hard, 
maybe at the U.N. General Assembly meetings this month, to find 
a friendly country to take all of these people, not to let them 
loose but to let them be processed as refugees without threats 
to their lives and without violations of international law and 
principles of humanitarian standards and human rights law. 
Thank you.
    [The prepared statement of Mr. Bloomfield follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Rohrabacher. Thank you very much. So it is indisputable 
that Iran's mullah dictatorship now has significant influence 
on the Government of Iraq and its policies, correct?
    Mr. Bloomfield. They happen to run part of the government. 
I question whether that is the sentiment of all of the Iraqi 
people, but yes, sir.
    Mr. Rohrabacher. Well, significant influence on its 
government and its policies, that doesn't necessarily mean its 
people. There have been reports that, in fact, there might be 
some Iranian special type of hit squads or whatever operating 
inside Iraq. Do you know anything about that?
    Mr. Bloomfield. I have heard the former commander of U.S. 
forces and coalition forces in Iraq say that he had a special 
unit during his tenure in the last 5 or 6 years that was 
tracking Iranian agents inside Iraq. They broke into a safe 
house and captured six of them one night, and four of them had 
diplomatic papers and had to be let go.
    Mr. Rohrabacher. Are these like Hezbollah units as well. I 
mean----
    Mr. Bloomfield. I don't know of Hezbollah units.
    Mr. Rohrabacher. Okay.
    Mr. Bloomfield. By the way, I am given to understand that 
the Ambassador of Iran in Baghdad is a senior Quds Force 
commander. I can't tell you I know that but I would certainly 
invite the Director of National Intelligence to answer the 
question. It shouldn't be too hard.
    Mr. Rohrabacher. It is not hard to ask the question. It is 
hard to get an answer on these things. So you have stressed 
today that Colonel Sadiq, the man who was in command of the 
troops that invaded Camp Ashraf and massacred, what, 34 dead 
and hundreds wounded of unarmed people, that he is now in 
charge of the security for the camp that we have agreed to send 
these people to?
    Mr. Bloomfield. Yes, sir.
    Mr. Rohrabacher. I would suggest that is a disgrace, and 
obviously our people on the scene know that. This is just 
disgraceful.
    Mr. Bloomfield. I like to give people the benefit of the 
doubt and I would----
    Mr. Rohrabacher. It is pretty hard to miss that. That is 
pretty hard to miss. In fact, if I remember seeing the photos, 
have you seen the videos from----
    Mr. Bloomfield. Yes.
    Mr. Rohrabacher. Was he the fat guy up there shooting his 
gun at the people?
    Mr. Bloomfield. I don't know, sir.
    Mr. Poe. You are correct. That is who he was.
    Mr. Rohrabacher. That is who he was. This is a disgrace, 
and it is a betrayal of everything America believes in. We made 
a deal with these people, and now we have someone who has 
already committed a massacre against them and put that person 
in charge of their security. Yes.
    Mr. Bloomfield. If I could make a comment, Mr. Chairman, we 
can look back and say this was a mistake, that was a mistake, 
but we could also look forward and say, worse things can 
happen. A third massacre could happen. That would be 
detrimental to America's honor and reputation.
    One of the things I learned from listening to Mr. Boumedra 
is that the U.S. forces who provided Fourth Geneva Convention 
Protected Persons status to all of the residents of Camp Ashraf 
in 2003 and gave them Protected Persons identity cards. There 
is a RAND report which we could discuss; I have some issues 
with the report, which tries to make the case that it should 
never have been granted, but that in any case it didn't outlive 
when U.S. troops pulled back from Camp Ashraf.
    Mr. Boumedra says, under Article 45 of the Fourth Geneva 
Convention, which I have read and tried to understand as a non-
lawyer, if the party that you give the security over to, namely 
Iraq, does a good job, then you are fine. If the party that you 
hand security over to does not uphold their security, you 
continue to have that obligation. And he wrote this in his 
column in The Hill, that the United States has an international 
legal obligation that continues to this day. A promise made in 
2003 has not expired for those residents. So it is more than 
just a moral issue. It is a legal obligation. And I daresay 
that is why so many senior former U.S. leaders are outspoken on 
this issue.
    Mr. Rohrabacher. Well, it is not just say an obligation to 
fulfill a contract. What we are talking about is the potential 
massacre of unarmed human beings, and that if that outcome 
happens it will not be because, oh, we didn't know that that 
was possible. What a mistake we made by overlooking the fact 
that the colonel who last oversaw the massacres was now put in 
charge of their security. This is not mistakes. This is evil 
dereliction of duty on the part of our people who are supposed 
to have policies of our Government that reflect what I consider 
to be the moral base of American policy. I mean if we have no 
moral base to our policy how do we expect anything else of the 
world?
    Secretary of State, for example, we have no doubt that the 
Secretary of State knows exactly what this situation is. I mean 
this is not, well, I am so busy that I overlooked it. I was 
just too busy out on the Pacific pivoting around there and too 
busy over here. No, she knows. And it is the policy of this 
administration. It is the policy that was decided upon by this 
administration, this Secretary of State and this President to 
make a rotten, corrupt deal with the mullah dictatorship in 
Iran. That is what it is all about. It is not about a mistake. 
It is about an intentional deal that has been made and kept 
from the American people. Now how do you verify that that deal 
actually exists? Well, it is sort of like the old thing, quack-
quack. If it looks like a duck and walks like a duck and talks 
like a duck and flies like a duck, it is probably a duck. And 
that is what we probably have on our hands here, not a duck, 
but what we have is an immoral deal between our Government and 
the mullah dictatorship, because all the indications are that 
that is what is driving this bad policy.
    I will now yield to Judge Poe who will tell us whether or 
not what I said is admissible in his court.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Bloomfield, thank you for your candor. I am surprised, 
but I do appreciate your candor today. We have a large group of 
people here that are seated behind you, and I see tired eyes in 
this audience. These are just regular folks. Many of them as 
you know have family in Ashraf or Liberty. Many of them had 
family in Camp Ashraf. They have friends that have been 
murdered in Camp Ashraf by the Maliki government. The person in 
charge you have mentioned is now in charge of Liberty, Camp 
Liberty.
    And these eyes that I see, these tired eyes, they are tired 
for a lot of reasons. They are tired of being treated not like 
people, but like criminals, maybe even worse than criminals. 
They are tired of promises, promises, promises. They are tired 
of abuse. They are tired of having their property stolen from 
them. They are tired of being treated as subhumans. They are 
tired of losing the lives or the loss of lives of their family 
and their friends. Tired eyes. They are tired of Maliki. They 
are tired of Iran. And they are tired of the United States' 
promises to keep them safe.
    We are as you know the human rights country in the world. 
We have done a pretty good job spreading that gospel. We 
haven't done a very good job at all with these people, the MEK. 
They are in the situation they are in because of the United 
States, in my opinion. We labeled them as a foreign terrorist 
organization. You don't see the eyes of terrorists in this 
room. They are not terrorists.
    And we have it in our power to help this bad situation with 
the Maliki government, with the Iranian Goverment, with the 
criminals that are stealing their property and stealing their 
lives. We have it in our power to fix it. You mentioned that it 
would be great if we could get them all to some other country.
    They can't get in another country. They can't leave Iraq 
because no country will take them because we, the United 
States, have given them a label of a foreign terrorist 
organization. We remove that label as we should have done a 
long time ago, and then they will have hope to go to some other 
country, even the United States. But they can't get out of 
their concentration camp because of the label, our label. And 
in the last year, the State Department has been stonewalling 
court orders in our country, telling them to get it together, 
make up your mind. Review the designation, whether they should 
keep that designation or not. And by making no decision they 
are still labeled. So the day of reckoning ought to be the 
Secretary of State when she goes to the U.N., in my opinion, 
ought to say, guess what, folks. We are removing the FTO 
designation from the MEK, and now we are going to help those 
people get out of Iraq and actually be free. And then we may no 
longer see tired eyes, but eyes that believe in liberty in Camp 
Liberty.
    I have one question. Well, I have a lot of questions. I 
don't know how much time you are going to let me talk, but I am 
going to talk until you make me stop.
    Mr. Rohrabacher. Go for it.
    Mr. Poe. I understand your position. I understand your 
position in our Government, and some of our questions probably 
should be to others. What can we do to make sure as a nation, 
us, that Martin Kobler is removed from any authority in the 
United Nations?
    Mr. Bloomfield. Well, Judge Poe, as you know I am speaking 
as a former official----
    Mr. Poe. I know.
    Mr. Bloomfield [continuing]. But for myself. In my 
testimony you will see I was shocked and disappointed by the 
statement out of the U.N. Under Secretary General for Political 
Affairs office on July 28th, their reaction to the news that 
Mr. Boumedra was lodging serious complaints about UNAMI's 
conduct in Iraq and violation of U.N. principles. The U.N. 
spokesman said, we are disappointed that this great process is 
being distorted and misportrayed. In other words, the messenger 
is being dismissed as not credible. That is all they have said. 
Well, there may be some other correspondence going on but I 
will leave that to Mr. Boumedra to talk about. But that was the 
public statement.
    I am not aware that the U.S. Government has made an 
official statement of reaction. I urge them to be very careful. 
And I cite an example where when I had 320 people in the State 
Department under my leadership there was an allegation made. I 
didn't know if it was true or false. I didn't know if the 
person was credible or not. I had no choice but to do the right 
thing, which is have a town hall meeting, announce that we are 
going to allow the professional investigators to come in, and 
we are all going to cooperate. And it was painful. It slowed us 
down in our work, but we did the right thing. Because the 
minute you start sending a message that standards and laws and 
rules can be overlooked it is a very slippery slope.
    So my answer, sir, would be the U.N. should be sending in 
another envoy. Maybe if they don't want to dismiss Mr. Kobler 
they should send in a veteran to ride sidesaddle and watch over 
what happens from there. That is point one.
    Point two is really for the U.S. Government. I am here to 
tell you that I don't think the Government of Iran ever wants 
the residents, the exiles inside Iraq to leave alive. Because 
if they do they will find safe harbor in countries around the 
world and they will conduct political activities aimed at 
ending the dictatorship in Tehran. We know that the government 
of Tehran does not want that to happen. That is clearly now 
revealed to be the operative policy. I think the State 
Department needs to take a deep breath and say our plan, the 
one the Secretary testified to, the smooth processing and 
onward relocation, is going to take years and it is probably 
not going to happen, because the Government of Iraq or the 
Prime Minister's office with the Iranian Embassy and the regime 
in Tehran right behind them, is going to obstruct this at every 
turn. It is a losing proposition. We need to think of something 
different.
    My view is perhaps they could be granted refugee status, 
but short of that the UNHCR process could be relocated to a 
safe facility where they are still under the sort of 
supervision of the United Nations. They could be interviewed 
and there would be no coercion. There would be no threats to 
the public safety and to the lives of these people. And there 
would be no question of the United States being complicit in 
the violation of international humanitarian standards and human 
rights law.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Rohrabacher. Well, it is clear that the government of 
Tehran, the mullah dictatorship, is not acting in good faith. 
After all, what they really want is, as you say, they want this 
group of people to be squashed like bugs so that they won't be 
bothered by them in some way. It appears that the Government of 
Iraq is not operating in good faith. Any government that places 
a perpetrator of a massacre in charge of security over the same 
group of people who have been massacred certainly isn't 
operating in good faith. There is no doubt that these people 
know what they are doing.
    Well, that leaves the United States Government. Are we 
operating in good faith? Is our State Department operating in 
good faith? Considering the fact that this could be solved, we 
believe at least, at least we know that would be a very good 
policy that we could solve this situation in an acceptable way 
if our designation of this group as a terrorist group was taken 
off, I don't see how we can assume that our Government is 
operating in good faith. That is pretty bad. I mean this is 
pretty bad. The mullah regime is not operating in good faith. 
The lap dogs of the mullah regime in Iraq are not operating in 
good faith. And the United States State Department is not 
operating in good faith. I am kind of disappointed that we are 
in that crowd.
    And so let us just note this. In 1939, the U.S. St. Louis, 
a passenger vessel, was loaded with Jews in Europe and it took 
off for the West, and a whole shipload of Jews who are going to 
escape the holocaust. Well, Mr. Bloomfield, you know what 
happened to that ship, don't you? We turned them down. We 
turned them down. Well, if the United States turned them down, 
why should anybody else accept them? So we turned them down and 
then they went to Cuba and then they went elsewhere, and no one 
would take them, because after all, the United States turned 
them down. And a significant number of them ended up back in 
Europe and died in the holocaust.
    Is this the type of decision making that is acceptable for 
the United States today, as we have a group of people who have 
already suffered a massacre knowing that they may well be 
massacred again? And we are just going to say no, we are not 
going to change that designation, and we expect the ship to 
sail on?
    Mr. Bloomfield. Mr. Chairman, I will give you my 
perspective. As someone who has served in five administrations 
I can't get the policy calculus out of my mind. A lot of issues 
are imperfect. There are a lot of issues that are hard, and 
they are sometimes too hard. The results aren't pretty. No one 
can say this is easy for the State Department, and I recognize 
that. The question now is, what should we be doing right now to 
rectify the situation? I will just say, a foreign terrorist 
organization listing is not an impediment to living up to our 
human rights standards and fulfilling our international legal 
obligations. As a superpower, anything less is not acceptable. 
We can do this the right way. So there is no excuse not to 
stand up for our principles.
    If we were to back away from Mr. Maliki's activities as if 
to say ceding him the playing field at a time, frankly, when 
Iran is losing its grip in Syria and Lebanon, this is not the 
time for us to be sort of ceding territory in what used to be 
the strongest country in the Arab world to people who are not 
fulfilling international legal principles. What we should be 
doing is making an issue of it and urging them and showing them 
a way forward that says, if you straighten up we can do this 
the right way, but you need to stop abusing an at-risk 
population.
    On the issue of the foreign terrorist listing, I think the 
analogy can go a little further. What is a foreign terrorist 
organization listing? What does that mean? It means we have 
some of the smartest, most patriotic and talented people who 
were good enough to get into the Treasury Department, the FBI, 
and the National Counterterrorism Center; these are the people 
who are supposed to be tracking terrorists around the world. 
And so if you are on that list they are chasing you through 
Interpol. They are looking for financial transactions. They are 
looking for front companies. They are checking airline 
manifests. That is their job and they do it very well. So if a 
group is on that list and I am a European government, I am 
thinking to myself, do I really want the Treasury Department 
and FBI and all these people tracking, do I want to bring 
people in who will attract all of this law enforcement scrutiny 
and jam up my airline security and all of that? I don't think 
the U.S. Government has been honest about the burden that FTO 
places.
    Now should they be on the list or not? I have never 
answered that question. I have studied this issue, but I have 
left it to people to read the evidence for themselves. Now I am 
close to completing a very in-depth study of all the 
allegations including the history, and I cannot find anything 
that comports with the 2004 law, certainly not within 2 to 5 
years, that would fall under the definition of terrorism. That 
doesn't mean it doesn't exist. But if you will permit me, sir, 
imagine that there is something classified. Imagine that there 
is a smoking gun piece of intelligence.
    All I can say is, if it is more than 1 month old, if it is 
1 year old or 2 years old and we haven't released it, and I 
were the British Government, I would say, you let us have a 
royal wedding, you let us have the Queen's 60th Jubilee, and we 
had the Olympic Games, and you didn't tell us that there was a 
smoking gun of terrorist activity by people who are running 
around our country free? So that would be issue one. And if the 
answer was, well, actually we did share it with the Brits, then 
you are going to have a call from the appeals court, which we 
know for a fact hasn't seen it. They are waiting for this 
dossier saying, you gave it to a foreign country but you didn't 
give it to a court of law in America.
    Mr. Rohrabacher. Or how about you didn't give it to the 
Oversight and Investigations Subcommittee of the committee in 
Congress that is supposed to oversee American foreign policy?
    Mr. Bloomfield. I thought you would finish the thought for 
me.
    Mr. Rohrabacher. Yes. It is outrageous. It is obviously to 
me and it should be obvious to any honest observer that this 
designation is out of some corrupt agreement with someone, and 
that someone is likely to be the mullah regime in Tehran. I 
don't know what we got for it. Probably that they wouldn't be 
supporting certain terrorist activities as long as we kept this 
terrorist group--and what is a dictatorship of mullahs who have 
murdered so many people in their country, what do they think a 
terrorist group is? That is anybody who opposes them in an 
organized way.
    Now we appreciate your testimony today. I think that we 
have, what--well, I am sorry. We are done. And I thank you very 
much. If Ms. Jackson Lee was here now we would be free to keep 
it open, but we are not going to hold everybody here.
    Thank you, all. Let us make sure that America will make the 
right decision as long as we are there as U.S. citizens holding 
the decision makers' feet to the fire saying, these are our 
standards as American. You better represent those standards or 
you are not our Government. So that is what it is all about, 
all of us together. That is what America is, us, United States. 
We better stand for something better in this world or there is 
no hope for anyone in this world.
    Thank you. This meeting is adjourned.
    [Whereupon, at 4:59 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
